October 6, 2004


MEMORANDUM
FOR:           Mission Director, USAID/Morocco, Monica Stein-Olson

FROM:          RIG/Dakar, Lee Jewell III /s/

SUBJECT:       Risk Assessment of USAID/Morocco’s Management Controls after
               the Reduction-in-Force (Report No. 7-608-05-001-S)

This report presents the results of the subject risk assessment.

Since this is not an audit report, it does not contain any formal recommendations
for your action, but several suggestions have been made. Your comments to the
draft report are presented in their entirety as Appendix II.

I appreciate the cooperation and courtesy extended to my staff during the risk
assessment.
Background   Fiscal years (FY) 2003 and 2004 represented years of dramatic changes for
             USAID/Morocco. The Country Strategic Plan for the Mission ended in FY 2003,
             two years earlier than planned, to enable the Mission to make strategic
             adjustments that more closely address new priorities, in particular, the Free Trade
             Agreement.

             On June 19, 2003, USAID/Morocco submitted its Country Strategic Plan for FY
             2004-2008. The plan was designed to have an Economic Growth Strategic
             Objective (SO) with options for Education and Democracy/Governance SOs as
             well, depending on the Middle East Partnership Initiative (MEPI) funding. Due to
             limited resources, only the Economic Growth SO was approved.

             During FY 2003, USAID/Morocco implemented a reduction-in-force (RIF). By
             the end of the year, staffing levels were reduced from 54 to 26 (3 U.S. Direct
             Hires and 23 Foreign Service Nationals), reflecting a level appropriate for
             administering a Country Strategic Plan with just one expanded SO. However,
             shortly after the RIF was implemented, the Mission learned that Economic
             Support Funds funds would be provided in FY 2005. As a result, both the
             Education SO and the Democracy/Governance SO were reconsidered, and
             approval of the Country Strategic Plan that included all three SOs was given in
             January 2004. To support the expanded program proposed at $51 million dollars
             over the life of the strategy, staffing levels were planned for an increase to 34
             employees. However, additional Economic Support Funds and MEPI resources
             have increased the life of strategy program funding to around $100 million
             dollars. This will necessitate a review of planned staffing levels.

             The projected program levels are presented in the following table:

                        USAID/Morocco’s Planned Program Funding Levels for
                               FY 2004 to FY 2008 (Amounts in 000’s)
                           FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 Total
              SO 11 –       $5,630    $8,200     $8,600    $9,100    $6,870 $38,400
              Economic
              Growth
              SO 12 –        4,207    13,800     17,900      4,400      693 41,000
              Education
              & Training
              SO 13 –        2,927      4,000     6,500      6,573        0 20,000
              Democracy/
              Governance
                    Total   12,764    26,000     33,000    20,073     7,563 99,400




                                                                                              2
             Because of the dramatic reduction in staffing during FY 2003, the Mission
             requested that RIG/Dakar perform this risk assessment of its programs and key
             functions.

             The Government Accountability Office (GAO) states in the Standards for
             Internal Control in the Federal Government that internal controls are an integral
             component of an organization’s management. They should provide reasonable
             assurance that the following objectives are being met: effectiveness and
             efficiency of operations, reliability of financial reporting, and compliance with
             applicable laws and regulations.

             One function of internal controls noted by GAO and especially applicable in the
             case of this report is that the controls should “provide for an assessment of the
             risks the agency faces from both external and internal sources.” The GAO
             Standards note that the specific risk analysis methodology used can vary because
             of differences in agencies’ missions and the difficulty in qualitatively and
             quantitatively assigning levels of risk.



Discussion   In judging the risk exposure for USAID/Morocco’s major functions, we
             considered:

                •   The amount of funding the individual programs received.

                •   The change in staffing levels of the functions due to the RIF.

                •   The experience of key staff members in their area of expertise, as well as
                    in Morocco.

                •   Incidences of improper administration or material weakness (if any) noted
                    in prior reviews, audits, and/or reported by Mission officials.

                •   Mission support for management controls.

             The risk assessment covered three programs or strategic objectives (Economic
             Growth, Democracy and Governance, and Education) and four functional areas
             (the Program Office and the Management Office, which includes Financial
             Management and Contracting). The findings as to the factors and level of risk for
             each function follow.




                                                                                            3
Function Description                                Risk Exposure
Economic Growth Activities – emphasis on Moderate
increased opportunities for trade and investment
Risk Assessment Factors
• With a total fiscal year 2004 through 2008 funding level of approximately
    $38.4 million, this function is a significant portion (38.6 percent) of the
    USAID/Morocco portfolio.

•   Prior to the RIF, three staff managed environmental activities. Currently, one
    staff oversees all associated activities (eight contracts/grants). A major portion
    of these activities will be phased out by the end of FY 2004.

•   When fully staffed, the Economic Growth team is slated to have seven
    employees, including an Administrative Assistant. Prior to the RIF, nine staff
    managed economic and environmental activities.

•   The team leader is a U.S. Direct Hire (USDH) with over 20 years of USAID
    experience.

•   FYs 2003 - 2005 represent years of transition, as the RIF began in FY 2003. In
    FY 2004 and 2005, programs under the previous country strategy are ending,
    and new programs are beginning under the new strategy.

•   Three indicators were selected from the narrative section of the FY 2004
    Annual Report. Documentation was not available to support the reported
    results for the three selected indicators.

•   Site visits were not regularly documented.

•   Data assessments on performance indicators have not been done as required by
    Automated Directives System (ADS) 203.

•   Conflicting interpretations of file maintenance responsibility has resulted in a
    decentralized system that has introduced inefficiencies and difficulties in
    locating official documents, such as quarterly or annual reports, from
    implementing partners.

•   MEPI-funded projects have additional reporting requirements from the State
    Department and Embassy.

•   Under the new strategy, the Mission estimates this office will have five
    contracts/grants to monitor.




                                                                                    4
    Function Description                               Risk Exposure
    Education Activities – emphasis on access to Moderate
    quality education with emphasis on primary school
    completion
    Risk Assessment Factors
    • With a total fiscal year 2004 through 2008 funding level of approximately $41
       million, this function is a significant portion (41.2 percent) of the
       USAID/Morocco portfolio.

    •   Currently, the education team has two members and a shared Administrative
        Assistant. However, when the team is fully staffed, it is slated to have a similar
        staffing level as that prior to the RIF; i.e., four employees plus a shared
        Administrative Assistant.

    •   The team leader is an experienced Foreign Service National Personal Services
        Contractor with over 25 years at USAID/Morocco.

    •   The Cognizant Technical Officers (CTOs)1 are not certified, but the Mission
        has arranged for certification in January 2005.

    •   FYs 2003 - 2005 represent years of transition as the RIF began in FY 2003. In
        FY 2004 and 2005, programs under the previous country strategy are ending,
        and new programs are beginning under the new strategy.

    •   Annual report support was easily accessible and well organized.

    •   Site visits were not regularly documented.

    •   MEPI-funded projects have additional reporting requirements from the State
        Department and Embassy.

    •   Under the new strategy, the Mission estimates this office will have one
        substantially large contract and three grants. Two of the three grants are MEPI-
        funded which necessitates additional reporting requirements to the MEPI office
        at State Department.




1
  A Cognizant Technical Officer is an individual who performs functions that are designated by
the Contracting or Agreement Officer, or are specifically designated by policy or regulation as part
of contract or assistance administration.



                                                                                                  5
Function Description                               Risk Exposure
Democracy/Governance Activities – emphasis on Moderate
developing transparent and accountable democratic
institutions, laws, and economic and political
processes and practices
Risk Assessment Factors
• With a total fiscal year 2004 through 2008 funding level of approximately $20
    million, this function is a significant portion (20.1 percent) of the
    USAID/Morocco portfolio.

•   The Mission Director became the acting team leader in July 2003 when the
    USDH team leader left due to the RIF.

•   The Mission went through a period of transition without permanent staff. Once
    the Mission is fully staffed at the level of 34, the Democracy/Governance team
    is slated to have three employees (one U.S. Personal Services Contractor and
    two Foreign Service Nationals) plus a shared Administrative Assistant.

•   FYs 2003 - 2005 represent years of transition, as the RIF began in FY 2003. In
    FY 2004 and 2005, programs under the previous country strategy are ending,
    and new programs are beginning under the new strategy.

•   Three indicators were selected from the narrative section of the FY 2004
    Annual Report. Documentation was not available to support the reported
    results for the three selected indicators.

•   Site visits to monitor program activities were not regularly documented.

•   MEPI-funded projects have additional reporting requirements from State
    Department and Embassy.

•   Under the new strategy, the Mission estimates this office will have
    approximately three contracts and potentially two grants to monitor depending
    on program levels. One contract is MEPI-funded which necessitates additional
    reporting requirements to the MEPI office in the State Department.




                                                                                6
Function Description                                 Risk Exposure
Program Office (within Office of the Director) – High
coordinates budget and annual reporting
Risk Assessment Factors
• As a result of the RIF, the Program Office staffing was reduced from three key
   employees, which included the departure of a USDH Program Officer, to one
   Foreign Service National.

•   Prior to the RIF, data quality assessments (DQAs) were performed by a team of
    three people (the Controller and two Financial Analysts) with oversight by the
    Program Office. Now only one Financial Analyst is tasked with performing
    DQAs, with oversight from the Program Office.

•   FYs 2003 - 2005 represent years of transition as the RIF began in FY 2003. In
    FY 2004 and 2005, programs under the previous country strategy are ending,
    while new programs are beginning under the new strategy. This represents a
    significant burden on a Program Office of one, especially in meeting
    monitoring and evaluation requirements.

•   Support for six out of nine selected reported results included in the FY 2004
    Annual Report was not readily available.

•   The Mission did not designate the indicators to be included in the FY 2004
    Annual Report SO tables 9 months in advance as required by ADS 203.3.8.4.

•   The Mission Orders regarding programmatic policies and procedures were not
    updated. In particular, Mission Orders need to include policies and procedures
    to address the new annual reporting process promulgated by the Agency.

•   Two of the nine indicators reported in the SO tables in the FY 2004 Annual
    Report did not have a DQA performed on them as required by ADS 203.




                                                                                7
Function Description                              Risk Exposure
Executive Office (within the Management Office) Low
– performs administrative functions such as human
resource management, procurement, and all general
services
Risk Assessment Factors
• Operating expenses for the fiscal year ending September 30, 2004 will be
    approximately $1.6 million.

•   Staffing levels for the Executive Office were reduced significantly from 21
    before the RIF to an expected level of 15 if staffed in accordance with the latest
    approved strategy staffing level.

•   The Executive Officer (EXO) is also supervising the three-member Financial
    Management team.

•   Staffing constraints due to the RIF have not allowed for the designation of key
    positions such as the Computer Systems Administrator during the absence of
    the incumbent.

•   The EXO is also the CTO for an Economic Growth management unit.

•   Ten Mission Orders under the Management Office’s control need to be updated
    as either they are no longer applicable or certain sections of them are no longer
    applicable. In addition, two effective Mission Orders had duplicate numbers.




                                                                                    8
Function Description                             Risk Exposure
Financial Management (within the Management Moderate
Office) – maintains an accounting and financial
reporting system for the Mission
Risk Assessment Factors
• USAID/Morocco is not an accounting station, so the Mission does not have a
    USDH Controller. In FY 2003, the Controller’s function was relocated to
    USAID/Egypt, which operates on a different work week schedule and is
    located in a different time zone.

•   USAID/Egypt will be going through a reduction-in-force that will cause its
    Financial Management Office to lose approximately six staff, one of which is
    an operating expense accountant providing direct support to USAID/Morocco.

•   Financial Management staffing levels were reduced from seven professional
    positions (including a USDH Controller position and a Chief Accountant) and
    one Administrative Assistant before the RIF to three positions (a Budget
    Analyst, a Financial Analyst, and a Voucher Examiner) with a shared
    Administrative Assistant.

•   As program funding levels increase, the number of transactions processed in
    the financial management section will increase.

•   A multitude of responsibilities, including support for all three strategic
    objective programs and CTO responsibility for one management unit, has been
    assigned to the one remaining Financial Analyst.

•   By the end of FY 2004, approximately 15 temporary-duty assignments from
    Cairo will have been made; these and other associated financial support trips
    taken by USAID/Egypt staff will cost about $90,000. Given the increased
    funding levels and the migration to Phoenix, the Regional Controller in Cairo
    anticipates temporary-duty assignments will be made in FY 2005 as well.

•   The financial management system will migrate from Mission Accounting and
    Control System (MACS) to Phoenix during the summer of FY 2004.




                                                                               9
Function Description                                 Risk Exposure
Contracting Office (within the Management High
Office) – provides contract negotiation and contract
administration services
Risk Assessment Factors
• USAID/Morocco does not have a USDH Contracting Officer. The Regional
   Contracting Officer (RCO) from USAID/Jordan currently provides support.

•   Prior to the RIF, there were two Contract Negotiators supporting program
    activities, and now there is only one to support program funding of around
    $100 million.

•   The remaining Contract Negotiator has over ten years of USAID contracting
    experience.

•   There are currently 45 contracts that have been completed but need to be closed
    out. Of these, 23 are ready to be closed out immediately.

•   The electronic files in the contracting office were incomplete. The contracting
    office maintains several discrete electronic files to monitor and update the
    status of contract activity. For example, there is a file for active contracts, one
    for expired contracts awaiting close-out, and one for contracts ready to be
    closed out. Individual contracts are moved by the Contract Negotiator between
    these files as the contract status changes. During our review, we noted that a
    recently expired contract for $12 million was not included in any of the above
    files due to problems with moving the data appropriately.

•   Currently, there are 25 contracts/grants administered by the contracting office;
    the number projected under the new strategy will decrease. However, during
    the transition period in FY 2005, the Mission will continue to administer
    approximately 25 contracts/grants as old agreements phase out and new ones
    are implemented.




                                                                                    10
Conclusion   We examined the risk associated with the various aspects of the USAID/Morocco
             mission. The table below summarizes the findings.

                                                           Risk Exposure
                         Function                 High       Moderate          Low
              Economic Growth Activities                         √
              Education Activities                               √
              Democracy/Governance                               √
              Activities
              Director’s Office - Program
                                                    √
              Office
              Management Office –                                                √
              Executive Office
              Management Office –                                 √
              Financial Management
              Management Office –
                                                    √
              Contracting

             A higher risk exposure judgment implies that the program objectives for a
             particular function are more vulnerable to not being achieved or to experiencing
             irregularities.

             The three SOs were assessed as having moderate risk because of the weaknesses
             associated with each function as well as the significant amount of funding in each
             area. However, should staffing continue at current levels, these offices are all
             vulnerable and would fall into a high risk category.

             The risk associated with the Program Office within the Office of the Director is
             considered to be high as only one person is managing the responsibilities of this
             office. We noted various requirements that were not fully carried out. These
             included weaknesses in documentation and lack of DQAs. In addition, indicators
             to be included in the most recent Annual Report were not selected in advance as
             required. Since there are no current plans to increase the staffing level in this
             office, as funding and program activities grow, these problems will only become
             more pronounced. This requires attention and review of staffing plans.

             The Executive Office within the Management Office was assessed as having low
             risk. Even though there were weaknesses associated with the area, in general, we
             do not feel that they are significant enough to warrant a moderate risk level.

             The Financial Management function within the Management Office was assessed
             as moderate risk for several reasons. The Mission is not an accounting station and
             does not have a controller. It appears that the Mission has been receiving an
             adequate level of support from USAID/Egypt. However, the level of support has


                                                                                            11
not been always consistent. This appears to be mainly due to the lack of assigned
dedicated staff for USAID/Morocco and to different work week schedules and to
time zone differences between the two Missions. In addition, due to its own RIF,
USAID/Egypt will be losing Financial Management staff that either directly or
indirectly support USAID/Morocco financial operations. Once funding levels for
USAID/Morocco increase to the anticipated levels and the migration to a new
financial management system completed, the risk in the Financial Management
area will need to be reassessed.

We found the risk associated with the Contracting function within the
Management Office to be high and expect this risk level to continue through the
FY 2005 transition period. This is mainly due to the existing number of active
and inactive contracts/grants and our analysis revealing that there will not be a
decrease in contracting activity levels until the end of the transition period.
However, after the transition period the number of active and expired contracts
should decline significantly. Declining activity should also commensurately
reduce associated risk, but additional assistance to the Contracting Specialist
should be seriously considered given the increased program levels.

Overall, the risk exposure associated with USAID/Morocco is considered
moderate based on the results of this risk assessment and the plans for increased
staff to support higher program levels.

Based on our conversations with Mission officials and a limited review of the
Mission’s documentation, we are making the following suggestions for Mission
management to consider. These are not formal audit recommendations. The
suggestions do not necessarily represent deficiencies; rather, they incorporate
possible improvements to general Mission operations or enhancement to activities
already in process.

   •   The Mission should require the Program Office to verify the selection of
       performance indicators to be reported in the Annual Report nine months in
       advance of reporting. ADS 203.3.8.4 requires that annually, for each SO,
       the operating unit must designate a few (typically three to five)
       performance indicators from the Performance Management Plan that will
       be included in the annual report to provide performance data on the
       program for that year. The selection must be made at least nine months
       prior to the end of the fiscal year (i.e., by December 31). For the FY 2004
       Annual Report, the Mission did not designate indicators in advance as
       required.

   •   Mission Orders addressing both programmatic and administrative
       procedures should be updated. With respect to programmatic procedures,
       Mission Order 502 - Mission Central R4 Data Repository states that the
       strategic objective teams are responsible for submitting all supporting



                                                                               12
    documentation for indicator baseline values, targets, and results to the
    Program Office. However, the Program Office was not collecting this
    information, but rather assumed that the SO teams were maintaining their
    own respective files. In addition to clarifying the above requirement, this
    Mission Order should address the requirements under the new annual
    reporting process rather than the old R4 process. Mission Order 501-
    Quality Control of R4 Data also states that each SO team will verify the
    quality, accuracy and appropriateness of the data reported, with each team
    leader certifying to the Director annually prior to the compilation of R4
    performance tables that the data are valid and appropriate. However,
    currently the financial analyst is responsible for performing DQAs with
    oversight from the Program Officer. The Mission Order should also
    address the requirements under the new annual reporting process rather
    than under the old R4 process. With respect to administrative procedures,
    ten Mission Orders should be updated since they are not applicable
    partially or in their entirety. In addition, Mission Order numbers 801 and
    802 were found to have more than one Mission Order with that number.

•   The Program Office should review DQAs performed by the teams before
    submitting the Annual Report. In the FY 2004 Annual Report, two of the
    nine reported indicators did not have a DQA performed on them as
    required by ADS 203. In one case, the oversight was caused by a change
    in the Performance Management Plan of the Education SO. The financial
    analyst was not aware of the indicator changes and, therefore, did not
    perform a DQA on the updated indicator. In the other case, a DQA was
    inadvertently performed on a higher level indicator under a different
    intermediate result. Furthermore, due to staffing constraints, there is one
    financial analyst remaining to perform future DQAs while they were
    performed by a team of three before the RIF.

•   Site visits to monitor program activities should be regularly documented.
    Although SO team members stated that site visits were conducted,
    documentation associated with these visits were limited. Using a checklist
    specifying the purpose of the visit and type of monitoring to be conducted
    would standardize the scope of the visits and allow for easy
    documentation.

•   The Mission should develop a system to monitor contracting activity that
    incorporates the use of a master file to centrally maintain records and to
    allow sharing of this information with the appropriate CTOs. As it now
    stands, the contracting office maintains several discrete electronic files to
    monitor and update the status of contract activity. For example, there is a
    file for active contracts, one for expired contracts awaiting close-out, and
    one for contracts ready to be closed out. Individual contracts are moved
    by the Contract Negotiator between these files as the contract status



                                                                              13
changes. During our review, we noted that a recently expired contract for
$12 million was not included in any of the above files due to problems
with moving the data appropriately. Maintaining a master file of contract
activity instead of three individual files of contract data could prevent
errors caused by incomplete records and could introduce other
efficiencies, such as reducing the effort needed for updating and
maintaining electronic files. The contract information should also be
shared with CTOs who could review for any inaccuracies.




                                                                      14
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Office of the Regional Inspector General in Dakar conducted this risk
              assessment at the request of the Mission to assess the vulnerabilities of the
              programs and activities of USAID/Morocco after the reduction-in-force. This
              was not an audit and does not contain any formal recommendations. The risk
              assessment was conducted at USAID/Morocco from May 24 to June 10, 2004.

              Methodology

              To perform this risk assessment, we interviewed USAID/Morocco personnel and
              examined documentation to obtain an understanding of the Mission’s portfolio
              and activities. We assessed the controls at the mission level to determine if they
              were adequate and working as designed. Using this information, we assessed the
              level of risk (low, moderate, or high) for each major activity of the Mission.

              The risk assessment focused on fiscal years 2003 and 2004 data. We judged risk
              exposure (i.e. the likelihood of significant abuse, illegal acts and/or misuse of
              resources; failure to achieve program objectives; and noncompliance with laws,
              regulations, and management policies) for those major functions. We then
              assessed overall risk exposure as high, moderate, or low. A higher risk exposure
              indicates that the particular function is more vulnerable to not achieving its
              objectives or to experiencing irregularities.

              The general methodology for the survey included the following:

                 •    Reviewed applicable laws, regulations, policies, and guidance.

                 •    Met with USAID/Morocco officials to gain an understanding of the
                      breakdown of responsibilities and monitoring of programs. Assessed what
                      controls were being used for the various programs.

                 •    Reviewed documentation in each function, such as policies and
                      procedures, where applicable.

              The risk assessment has the following limitations:

                 •    We assessed risk exposure at the major function level only.

                 •    Higher risk exposure assessments are not definitive indicators that
                      objectives are not being achieved or that irregularities are occurring.




                                                                                             15
    Rather, a higher risk exposure implies that the particular function is more
    vulnerable to such events.

•   Because the assessments consider both internal and external factors, some
    of which are outside the span of control of management, risk exposure
    assessments, in isolation, are not an indicator of management capability.




                                                                            16
                                                                                          Appendix II

Management
Comments
              United States Agency For International Development
                                         MOROCCO




                                                                           MEMORANDUM

     TO:           LEE JEWEL III, REGIONAL INSPECTOR GENERAL
     FROM:         MONICA STEIN-OLSON, USAID DIRECTOR /s/
     SUBJECT:      RISK ASSESSMENT OF USAID/MOROCCO’S MANAGEMENT CONTROLS
                   AFTER THE REDUCTION-IN-FORCE (REPORT NO. 7-608-04-001-S)
     DATE:         09/24/2004
     REF:          RIG MEMO 7/29/2004 TO ACTING DIRECTOR GEORGE LEWIS


      The Mission would like to thank Lee Jewell, Kendra Schoenholz and Ragip Saritabak for their
      excellent support and assistance during this management risk assessment. The Mission concurs
      with the overall risk assessment and we have attached our specific editorial comments where we
      found information was not quite complete or perhaps inaccurate. While some findings are already
      being addressed, the majority of issues raised in this assessment are staffing related. The Mission
      has been unsuccessful in obtaining Embassy clearance to increase staff, either local or off shore,
      which is beginning to impact our ability to implement the new strategy and ensure proper
      accountability for our resources. RIG/Dakar’s assistance in documenting and flagging this serious
      vulnerability for USAID/Morocco is appreciated.




                                  10, Avenue Mehdi Ben Barka
                                   B.P. 120, Souissi, Rabat




                                                                                                      17
